BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF COMPLIANCE
No. 20-220

VBS DISTRIBUTION, INC., ET AL.,

Petitioners,
v.
NUTRIVITA LABORATORIES, INC., ET AL.,

Respondents.
As required by Supreme Court Rule 33. l(h), I
certify that the Motion for Leave to File Brief as
Amicus Curiae and Brief for Dean Erwin Chemerinsky
as Amicus Curiae in Support of Petitioners contains
277 words and 3,854 words, respectively, excluding the
parts of the Brief that are exempted by Supreme Court
Rule 33. l(d).
I declare under penalty of perJury that the
foregoing is true and correct.
Executed on September 24, 2020.

Wo

DonnaJ.
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001

I BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

: (800) 890.5001
www.beckergallagher.com

8790 Governor's Hill Drive
Suite 102
Cincinnati, Ohio 45249

Franklin Square
1300 I Street, NW, Suite 400E
Washington, DC 20005

Sworn to and subscribed before me by said Affiant
on the date designated below.

[seal]

Notary Public

